Supreme Court, U.S.
FILED

WAIVER

DEC 1 8 2020

Supreme Court of the United Sta 6

ICE OF THE CLERK

No. 20-740
v.

Jim Bognet, et al.
(Petitioners)

Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
x

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Please enter my appearance for the Northampton County Board of Elections
am a member of the Bar of the Supreme Court of the United. States.

x

I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
Signature
Date:

2(1.1 f20

(Type or Print) Name: Brian J. Taylor
x Mr.
t] Ms.

Miss

Firm: Northampton County Solicitor's Office
Address: 669 Washington Street
City & State: Easton, PA

Zip: 18042

Phone: 610-829-6350
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF PRO SE. PLEASE
INDICATE BELOW THE NAME(S) OF THE RECEIPIENT(S) OF A COPY OF THIS FORM. NO
ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC:

Nicolas \ramie (Tivarone(gcooperIcirk.com)
Obtain status of case on the docket By phone at 202479-3034 or via the in
at
le.
littp://www.supremecourtus.gov. Have the Supreme Court docket number avail

RECEIVE7
JAN 2,2,202i

OFFiCE OF THE CLERK
SUPREME COURT U.S.

COUNTY OF NORTHAMPTON
OFFICE OF THE SOLICITOR

MELISSA P. RUDAS
COUNTY SOLICITOR

NORTHAMPTON COUNTY COURTHOUSE
669 WASHINGTON STREET
EASTON, PA 18042
TELEPHONE: 610-829-6350
FAX: 610-559-3001

MICHAEL F. CORRIERE
FIRST ASSISTANT SOLICITOR
ASSISTANT SOLICITORS:
TIMOTHY P. BRENNAN
DAVID J. CERAUL
PHILIP D. LAUER
RICHARD E. SANTEE
JOSHUA D. SHULMAN
BRIAN J. TAYLOR

December 18, 2020

VIA FIRST-CLASS MAIL
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Jim Bognet, et al. v. Kathy Boockvar, Secretary of Pennsylvania, et al.
Docket No. 20-740

Dear Sir or Madame:
Please find enclosed a Waiver on behalf of Northampton County Elections to be filed in the
above-captioned matter.
Thank you for your assistance in this matter.

Respectfully submitted,

0

n,

Brian J. Taylor
Assistant Solicitor
BJT/ed
Enclosure

RECEIVED
ti

JAN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

